    August 19, 2005




Information Technology
Management
Status of Selected DoD Policies on
Information Technology Governance
(D-2005-099)




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ASD(C3I)              Assistant Secretary of Defense for Command, Control,
                         Communications, and Intelligence
ASD(NII)              Assistant Secretary of Defense for Networks and Information
                         Integration
CIO                   Chief Information Officer
FISMA                 Federal Information Security Management Act
GAO                   Government Accountability Office
GIG                   Global Information Grid
IRM                   Information Resource Management
IT                    Information Technology
NIST                  National Institute of Standards and Technology
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                                     August 19,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACOUISITION.
                            - -   --   -   .- -
                                           ~      - ~   ,- - ~
                                                             - -~--- - -~-
                         ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                           AND INFORMATION NTEGRATIONIDOD CHIEF
                           INFORMATION OFFICER
SUBJECT: Report on Status of Selected DoD Policies on Information Technology
         Governance (Report No. D-2005-099)

       We are providing this draft report for review and comment. The Under Secretary
of Defense for Acquisition, Technology, and Logistics and the Assistant Secretary of
Defense for Networks and Information IntegrationIChief Information Officer did not
respond to the draft report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
All recommendations remained unresolved. Therefore, we request that the Under
Secretary ot'L)efense for Acquisition, Technology, and Logistics and the Assistant
Sccretaw of Dcfcnse for Networks and Infomiation Integration Chief Information Officer
provide comments on this final report by September 19,3005.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudATMCildodis.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Kathryn Truex at (703) 604-8966 (DSN 664-8966) or Ms. Sarah Davis at (703)
604-9031 (DSN 664-9031). See Appendix F for the report distribution. The team
members are listed inside the back cover.
                                  By direction of the Deputy Inspector General for Auditing:
                                                                             A



                                           &
                                           -L&      Mary L. Ugo e
                                                                                 -
                                      Assistant Inspector General
                              for Acquisition and Technology Management
               Department of Defense Office of Inspector General
Report No. D-2005-099                                                    August 19, 2005
 (Project No. D2005-D000AL-0100)

        Status of Selected DoD Policies on Information Technology
                               Governance

                                Executive Summary

Who Should Read This Report and Why? The DoD Chief Information Officer, Chief
Information Officers of DoD Components, DoD information technology mission area
personnel, and other personnel responsible for overseeing DoD information technology
requirements should read this report to help the DoD information technology community
establish a DoD enterprise-wide information technology governance structure.

Background. Information resource management is the process of managing information
resources to accomplish the agency mission. The term encompasses information
technology, which is any equipment or interconnected system or subsystem of equipment
used in automatic acquisition, storage, manipulation, management, movement, control,
display, switching, interchange, transmission, or reception of data or information. For
purposes of this report, we use the terms “information resource management” and
“information technology governance” interchangeably.

Congress, through various legislation, requires that information resource management be
the primary duty of the DoD Chief Information Officer and that agency heads must
delegate specific authorities to the agency Chief Information Officer, including authority
to designate a senior agency information security officer. In addition, agencies must use
a capital planning and investment control process for selection, management, and
evaluation of information technology investments and DoD must establish a specified
process to manage its business systems. Office of Management and Budget
Circular A-130, “Management of Federal Information Resources,” November 28, 2000,
requires that agencies use a capital planning and investment control process that links
mission needs to information technology and uses portfolios to monitor investments.

Results. DoD is taking steps to enhance its policies for the DoD Chief Information
Officer, governance for business systems, information technology portfolio management,
and information security, but more work remains to be done. DoD needs to clarify the
obligation of DoD Components to implement DoD Chief Information Officer policy, use
a standard definition of “system,” forward a directive on portfolio management for
signature, appoint a permanent employee to the position of senior agency information
security officer, and provide oversight of Component compliance with investment review
process requirements. See the Finding section of the report for the detailed
recommendations.




                                             i
Management Comments. We provided a draft of this report on July 21, 2005. No
management comments were received. Therefore, we request that the Under Secretary of
Defense for Acquisition, Technology, and Logistics and the Assistant Secretary of
Defense for Networks and Information Integration/Chief Information Officer comment
on this final report by September 19, 2005.




                                         ii
Table of Contents

Executive Summary                                                     i

Background                                                           1

Objectives                                                           2

Finding
     Status of Selected DoD Enterprise-wide Information Technology
         Governance Policies                                          4

Appendixes
     A.   Scope and Methodology                                      17
     B.   Prior Coverage                                             18
     C.   Information Technology Governance Criteria                 20
     D.   Federal Criteria on Chief Information Officer              24
     E.   Principal Staff Assistants                                 26
     F.   Report Distribution                                        27
Background
           Information Resource Management. Information Resource Management
           (IRM) is the process of managing information resources to accomplish the agency
           mission. The term encompasses both the information itself and the related
           resources such as personnel, equipment, funds, and information technology.
           Information technology (IT) is defined as any equipment or interconnected
           system or subsystem of equipment that is used in the automatic acquisition,
           storage, manipulation, management, movement, control, display, switching,
           interchange, transmission, or reception of data or information by an agency. For
           purposes of this audit report, we use the terms IRM and IT governance
           interchangeably. See Appendix C for a synopsis of criteria we used for our audit
           of selected DoD IT governance policies.

           Chief Information Officer. Federal agencies are required to each appoint a
           Chief Information Officer (CIO). According to Public Law 104-106, “National
           Defense Authorization Act for Fiscal Year 1996,” Division E, Clinger-Cohen Act,
           section 5125, the primary duty of the CIO of selected agencies, including DoD, is
           IRM. The CIO must monitor and evaluate agency IT programs and advise the
           agency head to continue, modify, or terminate the IT programs. In addition, the
           CIO is to provide advice and assistance to senior management to ensure proper IT
           acquisition and IRM for the agency.1 Finally, section 2223, title 10, United States
           Code (10 U.S.C. 2223), chapter 131, requires the DoD CIO to review and provide
           recommendations to the Secretary of Defense on DoD budget requests for IT
           systems and national security systems. See Appendix D for a synopsis of
           pertinent Federal CIO criteria and see the Finding for pertinent DoD criteria.

           Business System Governance. Public Law 108-375, the National Defense
           Authorization Act for FY 2005, section 332, requires the Secretary of Defense to
           establish a Defense Business System Management Committee to coordinate DoD
           business system modernization initiatives and approve certifications for business
           system modernizations over $1 million. Further, the Secretary of Defense must
           delegate responsibility and accountability for review, approval, and oversight of
           planning, design, acquisition, deployment, operation, maintenance, and
           modernization of DoD business systems to specified approval authorities within
           DoD. The approval authorities must certify all modernizations over $1 million
           and must establish an investment review process to review all business systems
           under their respective purviews.

           Portfolio Management. The Clinger-Cohen Act, section 5122, requires agencies
           to use a capital planning and investment control process to provide for selection,
           management, and evaluation of IT investments2. The Office of Management and
           Budget (OMB) Circular A-130, “Management of Federal Information
           Resources,” November 28, 2000, establishes policy for managing information
           resources. OMB Circular A-130 requires agencies to manage IT through a capital

1
    These provisions of the Clinger-Cohen Act have been re-codified in title 40 United States Code, subtitle
    III, section 11315.
2
    These provisions of the Clinger-Cohen Act have been re-codified in title 40 United States Code, subtitle
    III, section 11312. In addition, section 8401 of Public Law 108-458 amended 40 United States Code,
    section 11312 to include a requirement for agencies to include information security needs in the agency
    process for selection of IT investments.



                                                       1
           planning and investment control process that links mission needs, information,
           and IT in an effective and efficient manner and requires the use of portfolios to
           monitor investments. Finally, the Deputy Secretary of Defense Memorandum
           “Information Technology Portfolio Management,” March 22, 2004, requires that
           DoD IT investments be managed as portfolios. Portfolio management is defined
           as management of selected groupings of IT investments using integrated strategic
           planning, integrated architectures, and performance measures, risk management
           techniques, transition plans, and portfolio investment strategies.

           Information Security. OMB Circular A-130 requires agencies to incorporate
           security into their information systems. In addition, Public Law 107-347,
           “E-Government Act of 2002,” title III, “Federal Information Security
           Management Act of 2002,” (FISMA) requires Federal agencies to develop,
           document, and implement an agency-wide information security program and
           report annually to the Comptroller General and Congress on the adequacy and
           effectiveness of information security policies, procedures, and practices. The
           FISMA also requires the heads of Federal agencies to delegate specific authorities
           to the agency CIO including authority to designate a senior agency information
           security officer. Finally, Public Law 108-458, “Intelligence Reform and
           Terrorism Prevention Act of 2004,” Section 8401, December 17, 2004, amends
           the Clinger-Cohen Act to enhance agency planning for information security.

           Performance and Accountability Report. The Federal Managers’ Financial
           Integrity Act of 1982 requires Federal agencies to assess the effectiveness of
           management controls for program, operational, and administrative areas as well
           as accounting and financial management. OMB Circular A-123, “Management
           Accountability and Control,” June 21, 1995, requires agencies to establish, assess,
           correct, and report on management controls, and to report annually material
           weaknesses to the President and Congress. OMB memorandum “FY 2004
           Performance and Accountability Reports and Reporting Requirements for the
           Financial Report of the United States Government,” July 22, 2004, provides
           guidance on preparation and submission of Performance and Accountability
           Reports which satisfy the requirements of the Federal Managers’ Financial
           Integrity Act of 1982. The 2004 Performance and Accountability Report
           identified the management of IT and Assurance as an ongoing systemic weakness
           because DoD information systems are potentially vulnerable to an information
           warfare attack. In addition, this issue has also been reported as a “significant
           deficiency” under the reporting requirements of the FISMA.3


Objectives
           The overall audit objective was to review the DoD governance structure for IT.
           Specifically, we examined legislative and OMB requirements for IT management,
           investments, and security; and we determined whether DoD processes were
           adequate to manage IT. See Appendix A for discussion of scope and
           methodology. See Appendix B for prior coverage related to these objectives.



3
    A systemic weakness is one that materially affects management controls across organizational and
    program lines and usually affects multiple DoD components.

                                                      2
Management Control Program Review. DoD Directive 5010.38, “Management
Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40,
“Management Control (MC) Program Procedures,” August 28, 1996, require each
DoD Component to implement a comprehensive system of management controls
that provides reasonable assurance that functions are efficiently and effectively
carried out as intended and to evaluate the adequacy of the controls. We did not
announce the review of the management control program as an audit objective
because DoD recognized the management of IT and assurance as an ongoing
systemic weakness in the FY 2004 DoD Performance and Accountability report.
As indicated in the finding, inadequate DoD policy contributes to the systemic
weakness in DoD management of IT as disclosed in the DoD FY 2004
Performance and Accountability Report.




                                    3
                    Status of Selected DoD Enterprise-wide
                    Information Technology Governance
                    Policies
                    Although DoD is making progress, DoD does not have adequate assurance
                    that its information technology is properly managed. This has occurred, in
                    part, because DoD has not fully implemented policies and procedures to
                    establish an effective, enterprise-wide governance structure for managing
                    its information technology. DoD has recently issued policy that partially
                    clarifies the roles pertaining to information technology management;
                    however, until additional policy is issued and existing policy is
                    authoritatively and thoroughly implemented, DoD information technology
                    may not be properly managed to achieve the DoD mission as intended by
                    the Congress and the Office of Management and Budget. Further,
                    inadequate DoD policy contributes to the systemic weakness in DoD
                    management of information technology as disclosed in the DoD FY 2004
                    Performance and Accountability Report.


DoD CIO Strategic IRM Plan
           DoD Strategic IRM Vision. The “DoD CIO Strategic Plan for Information
           Resources Management (IRM),” June 2004, provides the DoD strategic IRM
           vision to transition to a global, web-based, or net-centric, environment on a
           trusted network. The plan seeks to provide a framework for DoD IRM and
           supporting technologies to achieve the transformation and discusses goals,
           overarching strategies, principles, and key strategic initiatives. The goals are
           cascaded down to DoD Components and sub-components that are expected to
           develop supporting initiatives. DoD has designated the Global Information Grid
           (GIG) 4 architecture as the organizing construct to achieve net-centric operations
           and warfare.

           Net-Centric Governance. The strategic plan provides a general description of
           DoD IT governance to achieve net-centricity. Governance is viewed in terms of
           strategic plans, policies, and forums. Plans provide the vision, goals and
           objectives; policies provide a means to guide activities; and forums provide
           oversight, control, and evaluation. In establishing a governance structure for net-
           centricity, DoD seeks to:

                    •    Emphasize strategic and business planning;

                    •    Leverage existing DoD key decision support systems to the maximum
                         extent possible;



4
    The GIG is the globally interconnected, end–to-end set of information capabilities, associated processes,
    and personnel for collecting, processing, storing, disseminating and managing information on demand to
    warfighters, policy makers, and support personnel. The GIG supports all DoD, National Security, and
    related Intelligence Community missions and functions.

                                                       4
          •   Use nested and clearly integrated governance processes including
              integration with key decision support systems;

          •   Develop new policies and standards as needed based on review of
              current policies and standards;

          •   Design net-centric concepts into operations, system, and technical
              activities, reflect them in architecture, and use the architectures to
              guide IT investments; and

          •   Take a portfolio approach to manage and oversee IT investments.

   DoD Policy Issues. DoD has outlined a vision to transform to a net-centric
   information environment and has described a governance structure to achieve the
   net-centric goal. Policy is an important component of the IT governance structure
   envisioned by DoD. The following sections discuss some recent developments in
   selected DoD policy and related guidance pertaining to the DoD CIO, governance
   for business systems, IT portfolio management, and information security. Also in
   this report is a synopsis of prior audits covering additional policy concerns that
   DoD must address before it can establish an effective IRM structure.


DoD CIO
   DoD CIO Criteria. Federal criteria regarding the CIO provide that DoD and
   each Military Department can appoint their own CIO. The DoD CIO must
   answer to the Secretary of Defense while the Military Department CIOs must
   answer to the Secretary of their Military Department. However, the criteria do
   not provide specific explanation of the relationship between the DoD CIO and the
   Military Department CIOs. DoD criteria provide some insight into the
   relationship between the DoD CIO and other elements of DoD and the impact on
   issuance of DoD CIO policy and guidance within DoD.

           DoD Directive 8000.1. DoD Directive 8000.1, “Management of DoD
   Information Resources and Information Technology,” February 27, 2002,
   establishes policies for DoD IRM, including IT, and requires each DoD
   Component, including the Military Departments, to have a CIO reporting directly
   to the Component Head. The Assistant Secretary of Defense for Command,
   Control, Communications, and Intelligence, [ASD(C3I)] as the DoD CIO, will
   serve as the Principal Staff Assistant and issue enterprise-wide policies and
   procedures on IRM. Component CIOs must advise the DoD CIO and implement
   DoD CIO policy and guidance.

           Deputy Secretary of Defense Memorandum. On May 8, 2003, the
   Deputy Secretary of Defense issued a memorandum, “Implementation Guidance
   on Restructuring Defense Intelligence – and Related Matters,” that re-designated
   the position of DoD CIO from ASD(C3I) to the Assistant Secretary of Defense
   for Networks and Information Integration [ASD(NII)]/DoD CIO answering
   directly to the Secretary of Defense. The ASD(NII)/DoD CIO was to perform the
   DoD-wide




                                         5
           CIO duties that were performed by ASD(C3I) as described in DoD Directive
           8000.1 and other applicable guidance. The ASD(NII)/DoD CIO has additional
           responsibility for integrating all information and related activities and services
           across DoD.

                   DoD CIO Executive Board. The revised DoD CIO Executive Board
           (Board) Charter, April 13, 2005, indicates that the Board is the principal DoD
           forum to advise the DoD CIO on matters pertaining to IT management, the GIG,
           and the Enterprise Information Environment5. The DoD CIO chairs the Board
           and membership is composed of key representatives from across DoD including
           the Military Department CIOs. Some key functions of the Board include advising
           the DoD CIO on information management, IT, and GIG policy; enforcement of a
           portfolio review process for all IT programs; and alignment of IT portfolios with
           the GIG. Board members must represent their organization’s position with regard
           to Board issues; convey and support the positions and decisions of the Board to
           their organizations; and execute actions and tasks as directed by the Chair.

                   DoD Directive 5144.1. DoD Directive 5144.1, “Assistant Secretary of
           Defense for Networks and Information Integration/DoD Chief Information
           Officer (ASD(NII)/DoD CIO),” May 2, 2005, designates the ASD(NII)/DoD CIO
           as the Principal Staff Assistant and advisor to the Secretary and Deputy Secretary
           of Defense for networks, IT, and other designated areas. The DoD CIO is to
           provide policy, guidance, and oversight for various functional areas under its
           responsibility and is delegated authority to issue DoD Instructions, publications,
           and one-time directive-type memoranda to implement policies approved by the
           Secretary or Deputy Secretary of Defense in areas of assigned responsibility and
           functions. Instructions to the Military Departments shall be issued through the
           Secretaries of those departments or their designees. The Secretaries of the
           Military Departments must ensure that policies and guidance issued by the DoD
           CIO are implemented in their respective Military Departments. Further, DoD
           Component Heads must coordinate with the DoD CIO on all matters relating to
           DoD CIO responsibilities and functions. Finally, the DoD CIO will provide
           advice to the Office of the Secretary of Defense Principal Staff Assistants on
           certain DoD-wide issues related to areas under DoD CIO cognizance. See
           Appendix E for more information on pertinent Principal Staff Assistants.

           DoD CIO Policy and Guidance. As previously discussed, policy is an important
           component of the IT governance structure envisioned by DoD to achieve net-
           centricity. The DoD CIO is responsible to issue policy on IRM and various
           functional areas under DoD CIO authority. Military Department CIOs and other
           Board members have an opportunity to advise the DoD CIO on policy issues
           through the DoD CIO Executive Board. Recent guidance in DoD Directive
           5144.1 requires the Secretaries of the Military Departments to ensure that DoD
           CIO policy and guidance is implemented in their department and requires
           Instructions to the Military Department to be issued through the Secretary or their
           designee. However, the policy does not similarly state that the Principal Staff
           Assistants and Component Heads must ensure that DoD CIO policy and guidance
           is implemented. The DoD CIO should ensure that all of its policy and guidance
           to the Military Departments and other DoD Components is conveyed through the
           Component Head. In addition, DoD must clarify the obligation of the DoD

5
    The enterprise information environment is the common, integrated computing and communications
    environment of the GIG and is one of four mission areas in DoD portfolio management.

                                                    6
    Principal Staff Assistants and Component Heads to ensure the implementation of
    DoD CIO policy and guidance. Finally, the DoD CIO must use an effective
    oversight and enforcement mechanism to ensure that DoD CIO policy and
    guidance is properly implemented in the Military Departments and across the
    remainder of DoD to help provide for effective enterprise-wide IRM and
    achievement of a net-centric information environment.


Governance for Business Systems
    National Defense Authorization Act for FY 2005. Public Law 108-375, the
    National Defense Authorization Act for FY 2005, section 332, requires the
    Secretary of Defense to establish a Defense Business System Management
    Committee to coordinate DoD business system modernization initiatives and
    approve certifications for business system modernizations over $1 million.
    Further, the Act required the Secretary of Defense to delegate responsibility for
    review, approval, and oversight of planning, design, acquisition, deployment,
    operation, maintenance, and modernization of DoD business systems as follows:

           •   Under Secretary of Defense for Acquisition, Technology, and
               Logistics shall be responsible and accountable for business systems
               the primary purpose of which is to support acquisition, logistics, or
               installations and environment activities of DoD;

           •   Under Secretary of Defense (Comptroller) shall be responsible and
               accountable for business systems the primary purpose of which is to
               support financial management, strategic planning, or budgeting
               activities of DoD;

           •   Under Secretary of Defense for Personnel and Readiness shall be
               responsible and accountable for business systems the primary purpose
               of which is to support human resource management activities of DoD;

           •   ASD(NII)/DoD CIO shall be responsible and accountable for business
               systems the primary purpose of which is to support IT infrastructure or
               information assurance activities of DoD; and

           •   Deputy Secretary of Defense or an Under Secretary shall be
               responsible and accountable for business systems the primary purpose
               of which is to support DoD activities not covered above.

    These approval authorities must certify all modernizations over $1 million for
    business systems under their respective purviews to the Defense Business System
    Management Committee. By March 15, 2005, the approval authorities were to
    establish an investment review process, consistent with section 11312, title 40
    U.S.C., to review all business systems under their respective purviews.

           Defense Business System Management Committee. On February 7,
    2005, the Deputy Secretary of Defense issued a memorandum, “Department of
    Defense (DoD) Business Transformation,” and associated charter, that established
    the Defense Business System Management Committee to oversee transformation



                                         7
           in the Business Mission Area6. The overall goal of the Defense Business System
           Management Committee is to ensure that the Business Mission Area meets the
           needs and priorities of the Warfighting Mission Area. In addition, the Defense
           Business System Management Committee will ensure that business
           transformation goals are coordinated with DoD strategic planning.

                   Delegation of Authority. On March 19, 2005, the Deputy Secretary of
           Defense issued a memorandum, “Delegation of Authority and Direction to
           Establish an Investment Review Process for Defense Business Systems,” that
           delegated authority for review, approval, and oversight of planning, design,
           acquisition, deployment, operation, maintenance, and modernization for DoD
           business systems to the approval authorities described in the National Defense
           Authorization Act for FY 2005. By March 15, 2005, the approval authorities
           were to have developed an investment review process that includes review and
           approval of each DoD business system before obligation of funds on the system.

                   Investment Review Process. On June 2, 2005, DoD issued the
           “Investment Review Process Overview and Concept of Operations for Investment
           Review Boards,” to identify processes to establish and operate Investment
           Review Boards. Each approval authority must charter an Investment Review
           Board to review business systems supporting activities under its purview. The
           Investment Review Board reviews the investment and provides a certification
           recommendation, based on certification criteria, to the cognizant approval
           authority that then provides certification to the Defense Business System
           Management Committee. The June 2, 2005 document contains policies to be
           followed by Office of the Secretary of Defense managed Investment Review
           Boards. It does not describe Component Investment Review Board processes or
           business system investment procedures. However, Components are expected to
           establish their own Investment Review Board processes to manage their business
           systems transformation activities and ensure National Defense Authorization Act
           compliance. As DoD implements its investment review process, DoD should
           ensure that the process provides for review of all business system investments at
           least annually and DoD should provide oversight of Component compliance with
           investment review process requirements.

           Business Systems Supporting the Infrastructure. The National Defense
           Authorization Act for FY 2005 identifies business systems supporting the DoD IT
           and information assurance infrastructure as a subset of business systems and
           delegates review, approval, and oversight responsibility for them to
           ASD(NII)/DoD CIO. The ASD(NII)/DoD CIO is required to certify
           modernizations of these business systems in excess of $1 million to the Defense
           Business System Management Committee and develop an investment review
           process. However, in its June 2, 2005, investment review process, DoD states
           that IT and information assurance infrastructure systems that generally support
           the DoD Enterprise and all GIG users are not classified as Defense business
           systems and belong in the Enterprise Information Environment Mission Area.
           The DoD investment review process does not include business systems
           supporting the DoD IT infrastructure or information assurance activities.



6
    A Mission Area is a defined area of responsibility whose functions and processes contribute to
    accomplishment of the mission.

                                                       8
           FY 2007 Congressional Reporting. In response to the National Defense
           Authorization Act for FY 2005, DoD issued its “Status of the Department of
           Defense’s Business Management Modernization Program,” March 15, 2005,
           discussing achievements, plans, commitments, milestones, and performance
           measures for the DoD Business Management Modernization Program. As one of
           the program achievements, DoD stated that it had developed a standard definition
           of a business system to ensure a consistent inventory. However, in the DoD
           guidance for National Defense Authorization Act Reporting, issued on April 25,
           2005, Components were directed to use the Component definition of a system for
           FY 2007 IT budget purposes resulting in the potential for inconsistent DoD FY
           2007 IT budget reporting. On July 18, 2005, the Deputy Assistant Secretary of
           Defense (Resources) issued a memorandum “OSD Policy for FY07 OMB A-11,
           Exhibits 53 and 300, and NDAA, Sec 332,” which provided Office of the
           Secretary of Defense policy and guidance for completing the IT budget
           submissions for FY 2007. The memorandum includes a definition for “defense
           business system” and includes examples of IT systems that should be included in
           the definition and examples of IT that should be included as part of another
           reported system. However, the memorandum applies only to FY 2007 IT budget
           submissions. DoD must ensure that it uses a standard definition of “system”
           across the DoD enterprise. In addition, DoD OIG Audit Report No. D-2005-029,
           “Management of Information Technology Resources Within DoD,” January 27,
           2005, expressed concerns about the definition of a system within DoD and the
           DoD ability to develop a system inventory.


IT Portfolio Management
           The Clinger-Cohen Act, section 5122, requires agencies to use a capital planning
           and investment control process to provide for selection, management, and
           evaluation of agency IT investments.7 This requirement applies to national
           security systems to the extent practicable.8 OMB Circular A-130 requires the use
           of portfolios as part of the capital planning and investment control process.
           Finally, the Deputy Secretary of Defense Memorandum “Information Technology
           Portfolio Management,” March 22, 2004, requires that DoD IT investments be
           managed as portfolios and that guidance in the memorandum be incorporated into
           the DoD Directive System within 180 days.

           Draft DoD Portfolio Management Directive. DoD Draft Directive 8115.aa,
           “Information Technology Portfolio Management,” May 13, 2005, provides policy
           for managing portfolios of IT investments that focus on improving DoD
           capabilities and mission outcomes. Portfolios and governance forums must be
           established at the Enterprise, Mission Area, and Component levels. The
           ASD(NII)/DoD CIO will establish a governance forum for the Enterprise
           portfolio, ensure that Mission Area portfolio recommendations are based on
           architectures that comply with the GIG architecture, and will establish guidance
           on portfolio management. The draft policy designates leads and portfolio

7
    This provision of the Clinger-Cohen Act has been re-codified in 40 U.S.C., subtitle III, section 11312.
8
    A national security system is any telecommunications or information system operated by the Federal
    Government the function, operation, or use of which involves intelligence activities, cryptologic activities
    related to national security, command and control of military forces, equipment that is an integral part of
    a weapon or weapons system, or is critical to direct fulfillment of military or intelligence missions.



                                                        9
management responsibilities for the Business, Warfighter, Enterprise Information
Environment, and DoD portion of the National Intelligence Program Mission
Areas and provides portfolio management responsibilities for DoD Components.
The portfolio management process for each Mission Area and Component will
include monitoring and evaluation of the portfolio in order to recommend
continuation, modification, or termination of individual investments. Mission
Area recommendations will be provided to and considered within each of the
DoD decision support systems. In addition, the Director of Program Analysis and
Evaluation will review and issue programming and budgeting guidance that
considers Mission Area recommendations to initiate, continue, modify, or
terminate funding for IT investments.

        Business Mission Area Responsibilities. The Under Secretary of
Defense for Acquisition, Technology, and Logistics, in coordination with
ASD(NII)/DoD CIO, Under Secretary of Defense (Comptroller), and the Under
Secretary of Defense for Personnel and Readiness, is required to establish a
governance forum to oversee portfolio activities in the Business Mission Area in
accordance with the National Defense Authorization Act for FY 2005. The Under
Secretary of Defense for Acquisition, Technology, and Logistics, in coordination
with the other three officials, must also establish a Business Mission Area
portfolio, establish guidance for management of the Business portfolio, designate
portfolio management responsibilities, and represent Business Mission Area
portfolio recommendations within the DoD decision support systems. In addition,
three of the business systems approval authorities designated in the National
Defense Authorization Act for FY 2005 are to issue portfolio management
guidance on the Business Mission Area IT investments supporting activities under
their purview and are to conduct portfolio management oversight of their sub-
portfolios within the Business Mission Area. The ASD(NII)/DoD CIO, the
approval authority for business systems supporting the DoD IT infrastructure and
information assurance activities, does not have a sub-portfolio in the Business
Mission Area.

       Remaining Mission Area Responsibilities. The leads of the three
remaining DoD Mission Areas, including ASD(NII)/DoD CIO as the lead for the
Enterprise Information Environment Mission Area, will establish the Mission
Area portfolio, issue guidance for its management, and establish governance
forums to oversee Mission Area portfolio management activities. The Mission
Area leads will represent the Mission Area portfolio recommendations within the
DoD decision support systems

        Component Responsibilities. DoD Component Heads are responsible for
establishing Component portfolios aligning to Mission Area portfolio structures
and a governance forum to oversee Component portfolio activities. Component
Heads must also manage the Component portfolio and ensure that Component IT
investments are consistent with Mission Area guidance. Finally, Component
CIOs must verify to Mission Area leads and to the ASD(NII)/DoD CIO that
Component IT investments are consistent with Mission Area portfolio guidance.
Verification includes ensuring that Component resources are applied to Mission
Area recommendations that have been approved through the DoD decision
support systems.

Implementation of DoD IT Portfolio Management. As DoD implements its
portfolio management guidance, it must provide adequate oversight of
Component IT investments to validate that Components are following portfolio
                                   10
    management guidance and recommendations of the Mission Area. Requiring the
    DoD Component Heads to ensure that Component IT investments are consistent
    with Mission Area guidance and having Component CIOs verify this to the
    Mission Areas and ASD(NII)/DoD CIO are positive steps. However, the draft
    portfolio management guidance does not indicate what specific proactive steps
    the Mission Areas will take to gain sufficient visibility into Component IT
    investments to validate that Component investments are consistent with Mission
    Area guidance and recommendations. Such steps could include Mission Area
    lead review and comment on DoD IT budget requests for investments within their
    Mission Area portfolio. These budget reviews by the Mission Areas could assist
    the DoD CIO in fulfilling its responsibility under chapter 131, 10 U.S.C. 2223 to
    review and provide recommendations to the Secretary of Defense on DoD budget
    requests for IT systems and national security systems.


Information Security
    The term “information security” means protecting information and information
    systems from unauthorized access, use, disclosure, disruption, modification, or
    destruction in order to provide integrity, confidentiality, availability, and
    authentication.

    Federal Information Security Management Act. Public Law 107-347, the
    E-Government Act of 2002, Title III, FISMA provides a comprehensive
    framework for ensuring the effectiveness of information security controls over
    information resources that support Federal operations and assets. It requires
    Federal agencies to develop, document, and implement an agency-wide
    information security program and report annually to the Comptroller General and
    Congress on the adequacy and effectiveness of information security policies,
    procedures, and practices.

    Authority of DoD Chief Information Officer. FISMA requires the head of each
    Federal agency to delegate authority to the agency CIO to ensure compliance with
    the requirements of the Act. These requirements specifically include:
           •   designating a senior agency information security officer,

           •   developing and maintaining an agency-wide information security
               program,

           •   developing and maintaining information security policies, procedures,
               and control techniques to address all applicable requirements, and

           •   assisting senior agency officials concerning their responsibilities.

    The position of DoD CIO was established in response to the requirements issued
    under the National Defense Authorization Act for FY 1996. FISMA was enacted
    in December 2002 and set forth specific instruction for the head of each agency to
    delegate authority to the CIO to ensure compliance with the requirements
    imposed on the agency. Therefore, FISMA instructs the Secretary of Defense to
    delegate to the CIO the authority to ensure compliance with subchapter III of 44
    U.S.C chapter 35. DoD Directive 5144.1, “Assistant Secretary of Defense for


                                         11
    Networks and Information Integration/DoD Chief Information Officer
    (ASD(NII)/DoD CIO),” May 2, 2005, charters the ASD(NII)/DoD CIO
    responsibilities and functions. The DoD OIG commented on the draft of this
    directive on November 2, 2004, and based on that coordination, DoD Directive
    5144.1 delegates to the DoD CIO the responsibility to fulfill the requirements in
    44 U.S.C. 3544. The DoD CIO must use an effective oversight and enforcement
    mechanism to ensure that the directive is properly implemented across the DoD
    enterprise.

    Senior Agency Information Security Officer. FISMA requires the DoD CIO to
    designate a senior agency information security officer who shall:

           •   carry out the CIO responsibilities included in FISMA,

           •   possess professional qualifications, including training and experience,
               required to administer the functions described in FISMA,

           •   have information security duties as that official’s primary duty, and

           •   head an office with the mission and resources to assist in ensuring
               agency compliance with FISMA.

    On April 19, 2005, the Acting DoD CIO signed a memorandum designating the
    Director, Information Assurance, Office of the Deputy Chief Information Officer,
    as the senior agency information security officer. DoD filled the FISMA-required
    position of a senior agency information security officer with a temporary
    employee for a one year tour length with a one year optional extension. As of
    August 2005, DoD has not provided a final delegation of authorities as they relate
    to the required position.

    Section 3544(a)(5) of title 44, United States Code requires the CIO report
    annually on the effectiveness of the agency information security program and on
    the progress of remedial actions. Since one goal of designating a senior agency
    information security officer is to assist the CIO in carrying out his or her FISMA
    responsibilities, the continued appointment of the senior agency information
    security officer on a temporary basis would lack the continuity of oversight that
    FISMA intends.


Additional DoD Policy Concerns
    The previous sections discussed recent DoD policy developments and concerns in
    the areas of the DoD CIO, governance for business systems, IT portfolio
    management, and information security. Recent audits have identified additional
    policy concerns that DoD must address as it continues to build and define its IRM
    process.

           GIG Implementation. The GIG is the DoD organizing construct to
    achieve net-centric operations and warfare; however, in Government
    Accountability Office (GAO) Report No. GAO-04-858, “Defense Acquisitions:
    The Global Information Grid and Challenges Facing Its Implementation,” July 28,
    2004, GAO expressed uncertainty on how DoD will execute its plans and make

                                        12
           the GIG a reality. The GAO concerns included the key areas of enforcing GIG
           decisions across the military services and evaluating the progress of the GIG. The
           report contained no recommendations but indicated that GAO would perform
           future audits of the subject.

                   System Interoperability and GIG Inventory. Policy is an important
           component of the governance structure envisioned by DoD to achieve net-
           centricity, and interoperability and information assurance are important elements
           in achieving the DoD strategic goal of net-centricity. DoD OIG Report No.
           D-2005-033, “Implementation of Interoperability and Information Assurance
           Policies for Acquisition of Navy Systems,” February 2, 20059, indicated that the
           Navy had not fully implemented DoD interoperability policy. This audit
           demonstrates the challenges of implementation and enforcement of DoD policy at
           the Component level. Further, the audit found that DoD had not issued clear
           guidance on populating and maintaining the asset inventory for the GIG resulting
           in the lack of a complete GIG inventory at the Component level and inability of
           DoD to obtain adequate information superiority.

                   IT Investment Reporting. Submitting IT investment reports (Exhibit
           300 Reports) to OMB is required by OMB Circular A-11 for budget requests.
           Congress has challenged, in Committee report language, the quality of DoD IT
           management because IT documents and associated budget data provided by DoD
           were inaccurate, misleading, or incomplete. Based on the results in DoD OIG
           Report No. D-2004-081, “Reporting of DoD Capital Investments for Information
           Technology,” May 7, 2004; D-2005-02, “Reporting of DoD Capital Investments
           for Technology in Support of FY 2005 Budget Submission,” October 12, 2004;
           and DoD OIG Report No. D-2005-083, “Reporting of DoD Capital Investments
           for Information Technology in Support of the FY 2006 Budget Submission,” June
           10, 2005. DoD Components did not adequately report IT investments in the
           budget requests for FY 2004 through FY 2006. This occurred because the
           Component CIOs and Chief Financial Officers did not include all of the required
           information in the submission reports. A particularly glaring omission was
           information pertaining to security and privacy.

                  DoD Systems Inventory. DoD needs a complete inventory of
           information systems to prepare accurate systems status responses to OMB and
           congressional inquiry. Based on results in DoD OIG Report No. D-2005-029,
           “Management of Information Technology Resources Within DoD,” January 27,
           2005, DoD has not established a complete inventory of its information systems or
           consistently defined an information system. Without a complete inventory of
           information systems, DoD can not efficiently plan for future enhancements or
           replacements of systems, report accurately on DoD expenditure for IT, or report
           accurately on system security status.

                 Current DoD Accreditation Process. 44 U.S.C. section 3543 delegates
           DoD the responsibility to ensure that its Components comply with the National

9
    This audit report was one of a series of audits on implementation of interoperability and information
    assurance policies for acquisition of DoD systems. For additional details, see DoD OIG Report No. D-
    2003-011, “Implementation of Interoperability and Information Assurance Policies for Acquisition of
    DoD Weapon Systems,” October 17, 2002, DoD OIG Report No. D-2004-008, “Implementation of
    Interoperability and Information Assurance Policies for Acquisition of Army Systems,” October 15,
    2003, and DoD OIG Report No. D-2005-034, “Interoperability and Information Assurance Policies for
    Acquisition of Air Force Systems,” February 2, 2005.



                                                     13
Institute of Standards and Technology (NIST) standards; however, DoD OIG
Report No. D-2005-054, “DoD Information Technology Security Certification
and Accreditation process,” April 28, 2005, found that OASD(NII)/CIO officials
did not agree with this interpretation and therefore did not update DoD policy and
processes to include guidance established by NIST. Continued failure to do so
will result in potential information assurance incompatibilities between DoD and
other executive agencies.

        Proposed DoD Accreditation Process. To achieve adequate security
commensurate with the level of risk, OMB Circular A-130 states that agencies
must comply with OMB policy and NIST guidance, even if an agency implements
its own security standards. Also, the FISMA, December 17, 2002, requires an
annual report to the Comptroller General and Congress on the agency’s
development, documentation, and implementation of its agency-wide information
security program. DoD OIG Report No. D-2005-094, “Proposed DoD
Information Assurance Certification and Accreditation Process,” July 21, 2005,
concluded that draft DoD Instruction 8510.bb, “DoD Information Assurance
Certification and Accreditation Process (DITSCAP),” does not implement the
reaccredidation, security weakness, system user, and control objective
requirements established by FISMA and OMB.

        Plans of Action and Milestones. The OMB FISMA guidance requires
agencies to prepare a Plan of Action and Milestones for all program and system
security weaknesses. The DoD OIG Report No. D-2005-023, “Assessment of
DoD Plan of Action and Milestones Process,” December 13, 2004, concluded that
DoD did not develop, implement, manage and report Plans of Action and
Milestones for all IT security weaknesses. After mediation between DoD OIG
and DoD Management, it was agreed, in June 2005, that the ASD(NII)/DoD CIO
will issue a DoD policy memorandum that will establish a comprehensive Plan of
Action and Milestones process to develop, implement, manage, and close
identified security performance weaknesses. The guidance in the memorandum
will subsequently be incorporated into a change to DoD Instruction 8500.2,
“Information Assurance (IA) Implementation”.
        IT Security Training and Awareness. The FY 2004 FISMA reporting
process included questions on specialized training for employees with significant
IT security responsibilities and security awareness training for agency
employees. According to DoD OIG Report No. D-2005-025, “DoD FY 2004
Implementation of the Federal Information Security Management Act for
Information Technology Training and Awareness,” December 17, 2004, the DoD
CIO did not ensure the accuracy and supportability of the training information
reported by DOD Components in response to FISMA. In particular, the DoD CIO
did not ensure that DoD Components defined and identified employees with
significant IT security responsibilities, developed training requirements for those
professionals, and established processes to track and monitor either security
awareness training or specialized security training.

Since recommendations were made in the above reports, we did not make
additional recommendations in this report.




                                    14
Conclusion
    DoD has outlined a vision to transform to a net-centric information environment.
    As DoD notes in its strategic IRM plan, achievement of the net-centric vision will
    take years to complete and involve periodic restructuring and redirection. An
    effective IRM process is critical to accomplishment of net-centricity for DoD;
    however, establishment of an effective enterprise-wide IRM process for DoD is a
    monumental challenge that requires a concerted effort throughout the Department.
    Policy is an important component of the governance structure envisioned by DoD
    to achieve net-centricity. DoD is taking steps to enhance policies concerning the
    DoD CIO, governance for business systems, IT portfolio management, and
    information security, but more work remains to be done. For example, DoD has
    recently updated policy on the DoD CIO; however, DoD needs to further clarify
    requirements for DoD Components to follow DoD CIO policy and guidance and
    must use management oversight and enforcement mechanisms to verify that DoD
    CIO policy and guidance are properly implemented across the DoD enterprise.
    Use of such a function is inherently a management responsibility. In addition,
    DoD has also begun to implement National Defense Authorization Act for
    FY 2005 requirements for governance of DoD business systems; however, DoD
    needs to provide oversight of Component compliance with investment review
    process requirements. Further, DoD must issue final policy on IT portfolio
    management and provide sufficient oversight to validate that DoD Component
    actions are consistent with Mission Area portfolio guidance and
    recommendations. Finally, DoD has delegated responsibility to the DoD CIO
    based on FISMA; however, DoD must appoint a permanent employee to the
    position of senior agency information security officer. Improvements in and
    proper implementation of the above DoD policies will help DoD to establish an
    IT governance structure, including associated management controls, that is more
    consistent with the requirements of the Clinger-Cohen Act, National Defense
    Authorization Act for FY 2005, and FISMA, than is present practice.


Recommendations
    1. We recommend that the Assistant Secretary of Defense for Networks and
    Information Integration/DoD CIO:

           a. Prepare a memorandum for signature by the Deputy Secretary of
    Defense clarifying the obligation of DoD Principal Staff Assistants and
    Component Heads, similar to the obligation imposed upon Secretaries of the
    Military Departments by DoD Directive 5144.1, to implement DoD Chief
    Information Officer policy and guidance.

           b. Ensure that the clarification accomplished by Recommendation 1.a. is
    included in the next change request for DoD Directive 5144.1.

            c. Ensure that DoD Chief Information Officer policy and guidance is
    directed to Secretaries of the Military Departments and DoD Component Heads,
    to include the Chairman of the Joint Chiefs of Staff and the Combatant
    Commands, to ensure accountability and compliance.



                                        15
            d. Use effective management oversight and enforcement mechanisms to
    verify that its policies and guidance are properly implemented by the Military
    Departments and the remainder of the DoD enterprise.

           e. Subject to accomplishment of Recommendation 1.a., require DoD
    Components to use a standard definition of “system” across the DoD enterprise
    for FY 2007 and subsequent year information technology budget reporting and
    other purposes.

           f. Provide specific steps that Mission Areas must take to gain visibility
    into Component information technology investments to validate that Component
    investments are consistent with Mission Area guidance and recommendations.

            g. Complete the staffing process and forward a portfolio management
    directive to the Deputy Secretary of Defense for signature in order to assist in the
    establishment of a consistent governance structure across the DoD enterprise.

           h. Appoint a permanent Office of the Assistant Secretary of Defense for
    Networks and Information Integration employee to the position of senior agency
    information security officer as required by the Federal Information Security
    Management Act.

    2. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics specify the processes that will be followed to provide
    oversight to ensure that Components establish Investment Review Boards and
    manage their business system transformation activities in accordance with the
    National Defense Authorization Act and other criteria as required by the June 2,
    2005 “Investment Review Process Overview and Concept of Operations for
    Investment Review Boards.”


Management Comments Required
    The Under Secretary of Defense for Acquisition, Technology, and Logistics and
    the Assistant Secretary of Defense for Networks and Information
    Integration/Chief Information Officer did not comment on the draft of this report.
    We request that the Under Secretary and Assistant Secretary provide comments
    on the final report.




                                         16
Appendix A. Scope and Methodology
   We reviewed recent developments in DoD policy and related guidance pertaining
   to elements of IT governance within DoD. Specifically, we reviewed the DoD
   CIO IRM strategic plan to identify the DoD strategic vision. We also reviewed
   the Paperwork Reduction Act, Clinger-Cohen Act, Executive Order 13011, OMB
   Circular A-130, DoD Directive 8000.1, and DoD Directive 5144.1 to clarify the
   role and authority of the DoD CIO. In addition, we reviewed the National
   Defense Authorization Act for FY 2005 and overall DoD implementation of key
   requirements for governance of DoD business systems. Further, we reviewed
   OMB Circular A-130 discussion on portfolios and draft DoD policy to implement
   IT portfolio management. Finally, we reviewed the FISMA, DoD Directive
   5144.1, and related DoD efforts to implement key information security
   requirements. We reviewed documentation dated from October 1994 through
   July 2005.

   We visited or contacted officials from the Office of the ASD(NII)/DoD CIO and
   the CIOs of the Army, Navy, and Air Force.

   We performed this audit from December 2004 through July 2005 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Use of Legal Assistance. We performed this audit with advice from the Office of
   Legal Counsel for the DoD Inspector General on matters pertaining to compliance
   with Public Law and U.S.C.

   GAO High-Risk Area. The GAO had identified several high-risk areas
   throughout the Federal Government. This report provides coverage of the high-
   risk areas related to Protecting Information Systems Supporting the Federal
   Government and the Nation’s Critical Infrastructures. In addition, GAO
   identified several high-risk areas within DoD. This report provides coverage of
   the area related to the DoD Approach to Business Transformation.




                                      17
Appendix B. Prior Coverage
      During the last 5 years, the GAO and the DoD OIG have issued 23 reports on
      pertinent IT management issues. Unrestricted GAO reports can be accessed over
      the Internet at http://www.gao.gov. Unrestricted DoD OIG reports can be
      accessed at http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-05-381, “DoD Business Systems Modernization: Billions
      Being Invested without Adequate Oversight,” April 29, 2005

      GAO Report No. GAO-04-858, “Defense Acquisitions: The Global Information
      Grid and Challenges Facing Its Implementation,” July 28, 2004

      GAO Report No. GAO-04-376, “Information Security: Agencies Need to
      Implement Consistent Processes In Authorizing Systems for Operation,” July 28,
      2004

      GAO Report No. GAO-04-823, “Federal Chief Information Officers:
      Responsibilities, Reporting Relationships, Tenure and Challenges,” July 21, 2004

      GAO Report No. GAO-04-907T, “Department of Defense: Long-standing
      Problems Continue to Impede Financial and Business Management
      Transformation,” July 7, 2004

      GAO Report No. GAO-04-615, “DoD Business Systems Modernization: Billions
      Continue to Be Invested with Inadequate Management Oversight and
      Accountability,” May 27, 2004

      GAO Report No. GAO-04-731R, “DoD Business System Modernization: Limited
      Progress in Development of Business Enterprise Architecture and Oversight of
      Information Technology Investments,” May 17, 2004

      GAO Report No. GAO-04-551T, “Department of Defense: Further Actions
      Needed to Establish and Implement a Framework for Successful Financial and
      Business Management Transformation,” March 23, 2004

      GAO Report No. GAO-04-115, “Information Technology: Improvements Needed
      in the Reliability of Defense Budget Submissions,” December 19, 2003

DoD IG
      DoD IG Report No. D-2005-094, “Proposed DoD Information Assurance
      Certification and Accreditation Process,” July 21, 2005




                                         18
DoD IG Report No. D-2005-083, "Reporting of DoD Capital Investments for
Information Technology in Support of the FY 2006 Budget Submission," June 10,
2005

DoD IG Report No. D-2005-054, “DoD Information Technology Security
Certification and Accreditation Process,” April 28, 2005

DoD IG Report No. D-2005-033, “Implementation of Interoperability and
Information Assurance Policies for Acquisition of Navy Systems,” February 2,
2005

DoD IG Report No. D-2005-034, “Implementation of Interoperability and
Information Assurance Policies for Acquisition of Air Force Systems,”
February 2, 2005

DoD IG Report No. D-2005-029, “Management of Information Technology
Resources Within DoD,” January 27, 2005

DoD IG Report No. D-2005-025, “DoD FY 2004 Implementation of the Federal
Information Security Management Act for Information Technology Training and
Awareness,” December 17, 2004

DoD IG Report No. D-2005-023, “Assessment of DoD Plan of Action and
Milestones Process,” December 13, 2004

DoD IG Report No. D-2005-002, “Reporting of DoD Capital Investments for
Technology in Support of FY 2005 Budget Submission,” October 12, 2004

DoD IG Report No. D-2004-081, “Reporting of DoD Capital Investments for
Information Technology,” May 7, 2004

DoD IG Report No. D-2004-008, “Implementation of Interoperability and
Information Assurance Policies for Acquisition of Army Systems,”
October 15, 2003

DoD IG Report No. D-2003-117, “Systems Inventory to Support the Business
Enterprise Architecture,” July 10, 2003

DoD IG Report No. D-2003-022, “FY 2002 Independent Assessment of the DoD
Subset of Information Technology Systems for Government Information Security
Reform Reported for FY 2001,” November 14, 2002

DoD IG Report No. D-2003-011, "Implementation of Interoperability and
Information Assurance Policies for Acquisition of DoD Weapon Systems,"
October 17, 2002




                                  19
Appendix C. Information Technology
            Governance Criteria
    We reviewed a variety of criteria pertaining to elements of IT governance.
    Specifically, we reviewed criteria on the CIO, DoD business system governance,
    IT portfolio management, and information security. See Appendix D for
    additional details on criteria for the CIO. The following discussion synopsizes
    criteria we reviewed from the U.S.C., Public Law, President, OMB, and DoD.


United States Code
    Title 40, United States Code. Chapter 113, Responsibility for Acquisitions of
    Information Technology, subtitle III, Title 40 U.S.C. covers responsibilities for
    executive agencies’ capital planning and investment control in Section 11312, and
    the Agency CIO in Section 11315.

             Section 11312. Section 11312 of title 40, United States Code states that
    in fulfilling the responsibilities assigned under 44 U.S.C. 3506, section (h) , the
    head of each executive agency shall design and implement in the executive
    agency a process for maximizing the value, and assessing and managing the risks,
    of the IT acquisitions of the executive agency.

            Section 11315. Section 11315 of title 40, United States Code establishes
    the authority and responsibility of Executive Agency CIOs, such as, providing
    advice or other assistance to head or senior personnel of each executive agency,
    developing, maintaining, and facilitating the implementation of a sound IT
    architecture, and promoting the effective and efficient design and operation of all
    major IRM processes for the executive agency. The CIO’s primary duty is IRM,
    through monitoring, and evaluating IT programs, and advising the agency head to
    continue, modify, or terminate those IT programs.

    Title 44, United States Code. Chapter 35, Coordination of Federal Information,
    of title 44, United States Code covers Federal Information Policy in subchapter I
    Section 3506 and Information Security in subchapter III Sections 3543 and 3544.

            Section 3506. Section 3506 of title 44, United States Code states that the
    agency CIO shall report directly to the agency head and carry out the
    responsibilities listed under subchapter I of 44 U.S.C. 3506. Also, the Secretary
    of Defense and the Secretaries of each Military Department may each designate
    CIOs who shall report directly to such Secretary and carry out the responsibilities
    of the Department listed under Subchapter I of 44 U.S.C. 3506. Finally, if more
    than one CIO is designated, the respective duties shall be clearly delineated.

            Section 3543. Section 3543 of title 44, United States Code designates that
    the Director of OMB is responsible for developing and overseeing the
    implementation of policies, principles, standards, and guidelines including
    through ensuring timely agency adoption of and compliance with the standards
    issued under 40 U.S.C. 11331. Also, the Director of OMB shall require agencies
    to identify and provide information security protections commensurate with the

                                        20
    risk and magnitude of harm resulting from unauthorized access, use, disclosure,
    disruption, modification, or destruction of information collected by an agency or
    information systems used by an agency, contractor of an agency, or other
    organization on behalf of the agency.

            Section 3544. Section 3544 of title 44, United States Code states that the
    Head of each agency is responsible for providing information security protection
    commensurate with the risk and magnitude of harm resulting from unauthorized
    access, use, disclosure, disruption, modification, or destruction of information
    collected by an agency or information systems used by an agency, contractor of
    an agency, or other organization on behalf of the agency. Also, the Head of each
    agency shall comply with all the requirements in subchapter III of title 44, United
    States Code and section 11331 of title 40, United States Code.


Public Law
    Paperwork Reduction Act of 1995. Public Law 104-13, the Paperwork
    Reduction Act of 1995 assigns Federal agencies IRM responsibilities to increase
    agency productivity, efficiency, and effectiveness. The agency will also establish
    a senior official to carry out these responsibilities. The Secretary of Defense and
    the Secretaries of each Military Department may designate a senior official to
    carry out the IRM responsibilities.

    Clinger-Cohen Act. Public Law 104-106, the National Defense Authorization
    Act for FY 1996, Division E, the Clinger-Cohen Act, provides duties for the
    agency CIO. The CIO of selected agencies, including DoD, will have IRM as
    their primary duty. Additional duties include evaluating IT investments and
    advising the agency head on management for these IT investments.

    National Defense Authorization Act for FY 1999. Public Law 105-261, the
    National Defense Authorization Act for FY 1999, Subtitle D amends chapter 131
    of title 10, United States Code by adding a new section 2223 “Information
    technology: additional responsibilities of Chief Information Officers.” Section
    2223 provides DoD CIO responsibilities in addition to those in the Clinger-Cohen
    Act, including review of IT budget requests and ensuring interoperability.

    Federal Information Security Management Act. Public Law 107-347, the
    E-Government Act of 2002, Title III, FISMA provides a comprehensive
    framework for ensuring the effectiveness of information security controls over
    information resources that support federal operations and assets.

    National Defense Authorization Act for FY 2005. Public Law 108-375, the
    National Defense Authorization Act for FY 2005, section 332 requires the
    Secretary of Defense to establish a Defense Business System Management
    Committee to coordinate DoD business systems modernization initiatives, and
    certify and approve investments in excess of $1M. This Act requires the
    Secretary of Defense to assign certain responsibilities to specific Under
    Secretaries of Defense. In addition, the ASD(NII/CIO) is specifically made
    responsible for business systems that support the DoD IT infrastructure or
    information assurance activities.



                                        21
The President
    Executive Order 13011. Executive Order 13011, “Federal Information
    Technology,” July 16, 1996 establishes that agency CIOs have the visibility and
    responsibility to advise agency heads on design, development, and
    implementation of information systems. Furthermore, the agency CIO must
    review, monitor, and evaluate information systems and advise the agency head
    whether to modify or terminate those systems. These requirements must remain
    consistent with the applicability of the Information Technology Act.


Office of Management and Budget
    OMB Circular A-130. OMB Circular A-130, Management of Federal
    Information Resources,” November 28, 2000, was issued in accordance with the
    Paperwork Reduction Act, Clinger-Cohen Act, and Executive Order 13011. The
    OMB Circular A-130 establishes policy for management of federal information
    resources. The circular requires agencies to manage IT using a capital planning
    and investment control process that includes use of portfolios. The circular also
    requires agencies to appoint a CIO.


Department of Defense
    DoD Directive 8000.1. DoD Directive 8000.1, “Management of DoD
    Information Resources and Information Technology,” February 27, 2002,
    establishes policy for DoD IRM, and requires each DoD Component, including
    Military Departments, to have a CIO reporting directly to the Component Head.
    Deputy Secretary of Defense Memorandum dated May 8, 2003, states that the
    position of C3I/DoD CIO has been changed to ASD(NII)/DoD CIO. This
    memorandum also delegates additional responsibilities to the CIO for integrating
    IT activities across the Department and adhering to the instruction provided in
    DoD Directive 8000.1.
    DoD Instruction 8500.2. DoD Instruction 8500.2, “Information Assurance (IA)
    Implementation,” February 6, 2003 implements policy and prescribes procedures
    under DoD Directive 8500.1. New Plan of Action and Milestones guidance will
    be incorporated into this Instruction.

    Memorandum on Restructuring Defense Intelligence. Deputy Secretary of
    Defense Memorandum, “Implementation Guidance on Restructuring Defense
    Intelligence – and Related Matters,” May 8, 2003, redesignated the position of
    DoD CIO from ASD(C3I) to the (ASD(NII))/DoD CIO. This memorandum also
    states that the position of ASD(NII)/DoD CIO has the same responsibilities as the
    ASD(C3I)/DoD CIO and increased responsibilities for integrating all information
    and related activities across the Department. Also, this memorandum states that
    the ASD(NII)/DoD CIO must perform the DoD-wide duties described in DoD
    Directive 8000.1, and if necessary, update any existing DoD Directives or
    Instructions in order to implement this Memorandum.


                                        22
Memorandum on IT Portfolio Management. Deputy Secretary of Defense
Memorandum “Information Technology Portfolio Management,” March 22, 2004,
states that IT investments be managed as portfolios and guidance has to be
incorporated into the DoD Directive System within 180 days.

DoD Business Transformation. Deputy Secretary of Defense Memorandum,
“Department of Defense (DoD) Business Transformation,” February 7, 2005,
established the Defense Business Systems Management Committee to oversee the
transformation in Business Mission Area, including its priorities, goals, and
responsibilities.

Delegation of Authority for Defense Business Systems. Deputy Secretary of
Defense Memorandum, “Delegation of Authority and Direction to Establish an
Investment Review Process for Defense Business Systems,” March 19, 2005,
delegates authority for review, approval, and oversight of planning, design,
acquisition, deployment, operations, maintenance, and modernization of DoD
business systems to the approval authorities listed in National Defense
Authorization Act for FY 2005.

DoD CIO Executive Board Charter. The revised DoD CIO Executive Board
Charter, April 13, 2005, states that the DoD CIO Executive Board is the principal
forum to advise the DoD CIO on matters pertaining to IT management, GIG
policy, alignment of IT portfolios with the GIG, and the Enterprise Information
Environment. This Board is chaired by the DoD CIO, and membership is
composed of representatives from DoD Components, including the Military
Department CIOs.

DoD Directive 5144.1. DoD Directive 5144.1, “Assistant Secretary of Defense
for Networks and Information Integration/DoD Chief Information Officer
(ASD(NII)/DoD CIO),” May 2, 2005, provides responsibilities for the DoD CIO.
The DoD CIO must provide policy, guidance, and oversight for various functional
areas under its responsibility. The Secretaries of the Military Departments must
ensure that DoD CIO policy and guidance is implemented in their respective
Military Department.

DoD Draft Directive 8115.aa. DoD Draft Directive 8115.aa, “Information
Technology Portfolio Management,” May 13, 2005 provides policy for
management of DoD IT investments as portfolios and requires all four DoD
Mission Areas to develop and manage portfolios and establish governance forums
to oversee their portfolio activities. Further, DoD Components are to develop
portfolios aligned with Mission Area portfolio structures and ensure Component
IT investments are consistent with Mission Area portfolio guidance.




                                   23
Appendix D. Federal Criteria on Chief
            Information Officer
            Since at least 1995, the President, Congress, and OMB have issued requirements
            for Federal agencies to perform IRM activities. The following criteria, in
            chronological order, emphasize the key role of the agency CIO in implementing
            agency IRM.

                    Paperwork Reduction Act of 1995. Public Law 104-13, the Paperwork
            Reduction Act of 1995, May 22, 1995, assigns Federal agencies IRM
            responsibilities to improve agency productivity, efficiency, and effectiveness.
            Each agency must designate a senior official reporting directly to the agency head
            to carry out agency IRM responsibilities. The Secretary of Defense and the
            Secretary of each Military Department may each designate senior officials who
            report directly to such Secretary to carry out the IRM responsibilities for DoD. If
            more than one official is designated, the respective duties of the officials shall be
            clearly delineated.

                    Clinger-Cohen Act. Public Law 104-106, the National Defense
            Authorization Act for FY 1996, Division E, the Clinger-Cohen Act, February 10,
            1996, section 5125 (a) indicates that the agency senior officials referred to in the
            Paperwork Reduction Act of 1995 will be called CIOs. Section 5125 (b) provides
            that each agency CIO will provide advice and assistance to the agency head and
            other senior management on IT acquisition and IRM. The CIO should also
            develop, maintain, and facilitate implementation of a sound and integrated IT
            architecture to help achieve agency IRM goals and strategic goals. In addition,
            Section 5125 (c) provides that CIOs of selected agencies, including DoD, will
            have IRM as their primary duty, monitor and evaluate performance of agency IT
            programs, and advise the agency head on whether to continue, modify, or
            terminate a program or project.10 These requirements also apply to national
            security systems.

                   Executive Order 13011. Executive Order 13011, “Federal Information
            Technology,” July 16, 1996, required Federal agencies to establish clear
            accountability for IRM activities by creating CIOs with the visibility and
            management responsibilities to advise the agency head on design, development,
            and implementation of information systems. The CIO must monitor and evaluate
            performance of information systems and, as necessary, advise the agency head to
            modify or terminate those systems. These requirements apply to national security
            systems in a manner consistent with applicability in the Clinger-Cohen Act.

                   Section 2223, title 10, United States Code. Public Law 105-261, the
            National Defense Authorization Act for FY 1999, October 17, 1998 added section
            2223, “Information technology: additional responsibilities of the Chief
            Information Officers,” to chapter 131, title 10, United States Code. Section 2223
            required the DoD CIO to review and provide recommendations to the Secretary of
            Defense on DoD budget requests for IT and national security systems and ensure
            interoperability of IT and national security systems throughout DoD. In addition,
10
      Provisions of section 5125 (b) and (c) of the Clinger-Cohen Act have been re-codified in 40 USC,
     subtitle III, section 11315.

                                                      24
the DoD CIO will provide for elimination of duplicate IT and national security
systems within and between Military Departments and Defense agencies. The
Military Department CIOs will review budget requests for all IT and national
security systems and ensure that IT and national security systems are
interoperable with other relevant IT and national security systems within the
government and DoD.

        OMB Circular A-130. OMB Circular A-130, “Management of Federal
Information Resources,” November 28, 2000, establishes IRM policy. OMB
Circular A-130 requires agencies to appoint a CIO who must report directly to the
agency Head to carry out responsibilities of agencies listed in the Paperwork
Reduction Act, Clinger-Cohen Act, and Executive Order 13011. The Military
Departments and the Office of the Secretary of Defense may each appoint one
official. The CIO must monitor and evaluate performance of information
resource investments and advise the agency Head on whether to continue, modify,
or terminate a program or project.




                                   25
Appendix E. Principal Staff Assistants
    DoD has designated elements of the Office of the Secretary of Defense as
    Principal Staff Assistants and advisors to the Secretary and Deputy Secretary of
    Defense for key functional areas within DoD. Pertinent Principal Staff Assistants
    and their functional area responsibilities include:

           •   Under Secretary of Defense for Acquisition, Technology, and
               Logistics is the Principal Staff Assistant and advisor to the Secretary
               and Deputy Secretary of Defense for all matters relating to the DoD
               Acquisition Systems, research and development; advanced technology;
               developmental test and evaluation; production; logistics; installation
               management; military construction; procurement; environmental
               security; and nuclear, chemical, and biological matters;

           •   Under Secretary of Defense (Comptroller)/Chief Financial Officer is
               the Principal Staff Assistant and advisor to the Secretary and Deputy
               Secretary of Defense for budgetary, fiscal, and program analysis and
               evaluation matters (including financial management, accounting policy
               and systems, management control systems, budget formulation and
               execution, and contract audit administration and organization), and
               general management improvement programs;

           •   Under Secretary of Defense for Personnel and Readiness is the
               Principal Staff Assistant and advisor to the Secretary and Deputy
               Secretary of Defense for Total Force management as it relates to
               readiness; National Guard and Reserve component affairs; health
               affairs; training; and personnel requirements and management,
               including equal opportunity, morale, welfare, recreation, and quality of
               life matters; and

           •   ASD(NII)/DoD CIO is the Principal Staff Assistant and advisor to the
               Secretary and Deputy Secretary of Defense for networks and network-
               centric policies and concepts; command and control; communications;
               non-intelligence space matters; enterprise-wide integration of DoD
               information matters; IT, including national security systems; IRM;
               spectrum management; network operations; information systems;
               information assurance; positioning, navigation, and timing policy,
               including airspace and military-air-traffic control activities; sensitive
               information integration; contingency support and migration planning;
               and related matters.




                                        26
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
    Director, Business Transformation Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Under Secretary of Defense for Intelligence
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organization
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget



.




                                          27
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the




                                        28
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Technology Management Directorate prepared this report.
Personnel of the Department of Defense Office of Inspector General who
contributed to the report are listed below.

Mary Ugone
Kathryn Truex
Sarah Davis
Tracy Smelley
Barry Gay
James Buscaglio




                                  29
